<html>
<title> - NUMBER PORTABILITY</title>
<body><pre>[Senate Hearing 110-1163]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 110-1163
 
                           NUMBER PORTABILITY

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 12, 2007

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                  U.S. GOVERNMENT PRINTING OFFICE
75-680                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="afc8dfc0efccdadcdbc7cac3df81ccc0c281">[email&#160;protected]</a>  

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                   DANIEL K. INOUYE, Hawaii, Chairman
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska, Vice Chairman
    Virginia                         JOHN McCAIN, Arizona
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 GORDON H. SMITH, Oregon
MARIA CANTWELL, Washington           JOHN ENSIGN, Nevada
FRANK R. LAUTENBERG, New Jersey      JOHN E. SUNUNU, New Hampshire
MARK PRYOR, Arkansas                 JIM DeMINT, South Carolina
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
CLAIRE McCASKILL, Missouri           JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
Lila Harper Helms, Democratic Deputy Staff Director and Policy Director
   Christine D. Kurth, Republican Staff Director and General Counsel
Kenneth R. Nahigian, Republican Deputy Staff Director and Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 12, 2007....................................     1
Statement of Senator Inouye......................................    21
    Prepared statement...........................................    21
Statement of Senator Klobuchar...................................    25
Statement of Senator Stevens.....................................     1
Statement of Senator Thune.......................................    30

                               Witnesses

Banks, Jonathan, Senior Vice President, Law and Policy, USTelecom 
  Association....................................................     8
    Prepared statement...........................................    10
Clark, Hon. Tony, Commissioner, North Dakota Public Service 
  Commission Chairman, Telecommunications Committee, National 
  Association of Regulatory Utility Commissioners (NARUC)........    15
    Prepared statement...........................................    17
Guttman-McCabe, Christopher, Vice President, Regulatory Affairs, 
  CTIA--The Wireless Association................................    11
    Prepared statement...........................................    13
Schremp, Ted, Senior Vice President and General Manager, 
  Telephone, Charter Communications, Inc.........................     2
    Prepared statement...........................................     4


                           NUMBER PORTABILITY

                              ----------                              


                        THURSDAY, JULY 12, 2007

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:06 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Daniel K. 
Inouye, Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    Senator Stevens [presiding]. Good morning.
    Senator Inouye is stuck in traffic, and asked us to start 
the hearing.
    Let me say that advances and innovations in communications 
technologies are changing the communications marketplace. These 
changes are very good for consumers. One of the changes is 
increased competition for voice services. Ten years ago, when 
Congress passed the Telecommunications Act of 1996, almost all 
consumers had was telecommunications from their local telephone 
company.
    Today, consumers have many choices for voice services, from 
telephone companies, cable companies, wireless companies, and 
Internet-voice service companies. But, consumers are less 
likely to take advantage of the new choices if they cannot keep 
their phone numbers.
    One problem is delay. We've heard instances from a number 
of ports taking 10 to 30 days. And we have heard some providers 
requiring more than 100 pieces of data to port a number. These 
are unnecessary hassles that consumers complain about, and that 
providers are slow to correct.
    Another problem is that not all types of providers are 
covered under the FCC rules. When the FCC first promulgated its 
number portability rules, there were far fewer choices. It's 
time for the FCC to revisit those rules, and expand them to 
today's new voice service market. Consumers should not be 
limited in their choices, because they cannot risk losing key 
contacts or businesses as a result of having to change their 
phone numbers.
    Senator Inouye and I have introduced the Same Number Act of 
2007, to help consumers. And the bill requires the FCC to 
revisit its number portability rules, and extend them to all 
applicable voice communications services, not just 
telecommunications service. It does not advantage any one 
industry sector, instead it requires all services to port 
numbers on a reciprocal basis.
    It also calls for a notice to consumers, so that consumers 
will know what to expect when they change their services.
    We look forward to hearing today from the panel, and we'll 
try to find out how we can shape this bill to help consumers 
take advantage of new choices, and lower prices, available in 
today's communications marketplace.
    Our witnesses this morning, Mr. Ted Schremp, Senior Vice 
President and General Manager of Charter Telephone. Mr. 
Jonathon Banks, Senior Vice President for Law and Policy, U.S. 
Telecom Association, Mr. Chris Guttman-McCabe, Vice President 
for Regulatory Affairs at CTIA, and Mr. Tony Clark, 
Commissioner of the North Dakota Public Service Commission, and 
Chairman of the Telecommunications Committee of the National 
Association of Regulatory Utility Commissioners.
    I'm delighted that you gentlemen would join us, and Senator 
Inouye will be along, so I would appreciate it if you would 
start your statement, and keep them short, if you can. We'll 
print your full statements in the record, but we'll be pleased 
to listen to whatever you have to testify.
    Mr. Schremp, will you start, please?

        STATEMENT OF TED SCHREMP, SENIOR VICE PRESIDENT

                AND GENERAL MANAGER, TELEPHONE,

                  CHARTER COMMUNICATIONS, INC.

    Mr. Schremp. Certainly. Good morning, Vice Chairman 
Stevens, and my name is Ted Schremp, and I'm Senior Vice 
President and General Manager of Telephone at Charter 
Communications. From the company's headquarters in St. Louis, 
Missouri, I direct and oversee all operational and business 
matters concerning Charter's provision of residential and 
commercial voice services.
    Thank you for the opportunity to appear before you to 
testify on an issue of real importance to millions of consumers 
and businesses across the United States. And one which is 
essential to the continued viability of competition in the 
local voice services market.
    Charter believes that clear and consistent--as well as 
improved--number porting policies are essential to ensuring 
greater competition among providers of local voice services, 
and we greatly appreciate the Committee's efforts to review 
these issues in this hearing, and its ongoing efforts to 
enhance competition in the marketplace.
    Charter is a broadband communications company, with over 
16,000 employees, and approximately 5.7 million customers in 29 
states. Our broadband network passes 11.7 million homes, which 
we offer a full range of advanced broadband services, including 
digital cable programming, broadband Internet access, advanced 
broadband cable services, and telephone service.
    Charter telephone is delivered, primarily, using an 
Internet protocol-enabled platform, run over the cable 
company's privately managed hybrid fiber coax network. We serve 
nearly 600,000 phone customers, primarily residential phone 
customers, in 18 states, including 9 of the states before this 
Committee, and we will continue to roll out our competitive 
voice service in additional markets this year and next.
    Our customers are different than those of most of the major 
cable operators, but as Senators on this Committee, you know 
them well. They're predominantly located in less densely 
populated regions of the country, including many that would be 
defined as suburban, exurban, and rural areas, for example, 
Worcester, Massachusetts; Kennewick, Washington; St. Cloud and 
Mankato, Minnesota; Greenville/Spartanburg; South Carolina; and 
Slidell, Louisiana.
    Because many of these markets are in less densely populated 
regions, Charter is often the only competitive alternative. 
Charter also offers service, of course, in Eastern Missouri, 
including the Greater St. Louis area, which is the location of 
our corporate headquarters.
    Because we're aggressively deploying our voice 
communication service, we rely heavily on the number porting 
process to compete with the incumbent providers. In fact, on a 
weekly basis, Charter engages in approximately 13,000 porting 
transactions. Unfortunately, in the course of these porting 
transactions, Charter experiences a fallout rate of 
approximately 15 percent, translating to over 150 rejected 
orders every day. As such, Charter is acutely aware of the 
value of efficient and effective porting procedures, and the 
very real costs incurred when porting procedures are 
undermined, or disregarded by other providers.
    In addition, when ports take an unreasonably long time to 
complete, it's extremely difficult for Charter to compete in 
those carrier service territories, because a subscriber wishing 
to move to Charter service must sometimes wait for as long as 2 
weeks before they can switch providers, causing many 
subscribers simply to decline to continue the process and 
instead remain with the incumbent provider.
    Charter believes the implementation of additional porting 
principles would further enhance the competitive landscape, and 
ultimately benefit consumers. We're confident that these 
principles--if implemented--would further Congress's goal of 
reducing barriers, and accelerating competitive entry to the 
voice marketplace.
    First, incumbent telephone companies often require 
requesting providers--including Charter--to complete 
complicated service order forms that require numerous data 
points, many having little, if anything, to do with the 
processes necessary to port a telephone number. As a result, 
Charter believes that the port requests must be validated and 
completed after the competitive provider supplies the minimum 
necessary information to complete the port--generally, the 
name, address, and telephone number of the subscriber.
    In addition, although the FCC has established that all 
wireline providers must complete port requests within four 
business days, many providers do not. Many providers take well 
over 4 days to return a firm order commitment, resulting in a 
timeline of anywhere between 5 and 12 business days to complete 
a port request. Therefore, another important principle that 
could benefit competitors and consumers alike, is that all 
wireline carriers must complete wireline-to-wireline ports 
within four business days, or less.
    Second, there are some instances when a port request is 
scheduled to occur, but for one reason or another, the request 
cannot be completed, because of an operational issue, or an 
issue related to the customer. When a port request cannot be 
completed before 5 p.m. on the day of the scheduled port, some 
incumbent providers will simply terminate service to the 
subscriber, rather than wait for the port to be completed 
successfully at a later time, resulting in the customer's dial 
tone being interrupted for one or more days. Thus, all 
providers should adopt a policy of not terminating numbers from 
their switch for at least 48 hours after the scheduled port 
request is completed, to ensure that customers do not lose 
service, access to 911, or access to their telephone number, in 
the event that a port cannot be completed on the scheduled 
date.
    Finally, in addition to the practices described above, 
several carriers continue to attempt to impose carrier-to-
carrier charges, fees, or add-ons to such charges for 
completing customer requests to port a number from the 
carrier's network to Charter's network. Although the FCC has 
repeatedly ruled that carriers must cover the cost of a number, 
of number portability via tariffed end-user charges, several 
incumbent carriers continue to ignore those rules, and act in 
blatant disregard of the FCC's directive. Some providers 
attempt to mask these charges, claiming that they're associated 
with the recovery of administrative costs related to porting.
    Accordingly, another principle essential to continuing the 
competitive benefits of efficient number porting, is the notion 
that incumbent LECs may not recover any costs associated with 
porting, via any charge, fee or add-ons to interconnection 
charges to other providers.
    In conclusion, implementation of these principles would 
further the establishment of fair and efficient number porting 
processes for competitive providers, resulting in increased 
consumer choice, and competitive voice alternatives.
    Thank you, Mr. Chairman, for the opportunity to appear 
before you today, I'll be happy to answer any questions you or 
the other Committee members may have. Thank you.
    [The prepared statement of Mr. Schremp follows:]

 Prepared Statement of Ted Schremp, Senior Vice President and General 
            Manager, Telephone, Charter Communications, Inc.

Introduction
    Good morning, Chairman Inouye, Vice Chairman Stevens, and members 
of the Committee. My name is Ted Schremp and I am Senior Vice President 
and General Manager of Telephone at Charter Communications, Inc. 
(``Charter''). From the company's headquarters in St. Louis, Missouri, 
I direct and oversee all operational and business matters concerning 
Charter's provision of residential and commercial voice services.
    Thank you for the opportunity to appear before you to testify on an 
issue of real importance to millions of consumers and businesses across 
the United States, and one which is central to the continued viability 
of competition in the local voice services market. As explained in 
greater detail below, Charter believes that clear and consistent, as 
well as improved, number porting policies are essential to ensuring 
greater competition among providers of local voice services. For that 
reason, Charter greatly appreciates the Committee's efforts to review 
these issues in this hearing, and its ongoing efforts to enhance 
competition in the marketplace.

Background on Charter and Its Voice Service Offerings
    Charter is a broadband communications company with over sixteen 
thousand (16,000) employees and approximately 5.7 million customers in 
twenty-nine (29) states. Our broadband network passes 11.7 million 
homes, to which we offer a full range of advanced broadband services, 
including digital cable programming, broadband Internet access, 
advanced broadband cable services and telephone service. Charter 
Telephone<SUP>'</SUP> is delivered via Charter's subsidiary, Charter 
Fiberlink, primarily utilizing an Internet Protocol-enabled platform 
run over the cable company's privately managed hybrid fiber coax 
network.
    As of our last public filing, Charter Telephone<SUP>'</SUP> served 
nearly six hundred thousand (600,000) primarily residential customers 
in eighteen (18) states, including nine (9) before this committee: 
California, Massachusetts, Minnesota, Missouri, Nevada, South Carolina, 
Oregon, Texas, and Washington. Charter will continue to roll out our 
competitive voice service in additional markets this year. Expanding 
the reach and scope of our voice offerings throughout our service area 
is one of our highest priorities, and we have invested hundreds of 
millions of dollars to date. As a result, Charter Telephone<SUP>'</SUP> 
is currently available to over 7.3 million homes within our service 
territory, and we expect that number to continue to increase over the 
next 18 months.
    Our customers are different than those of most of the other major 
cable operators, but as Senators on this Committee, you know them well. 
They are predominantly located in less densely populated regions of the 
country, including many suburban, exurban, and rural areas. 
Accordingly, many of the largest markets for Charter's voice services 
are what some people in the industry classify as ``Tier II'' and ``Tier 
III'' markets, for example: Worcester Massachusetts, Kennewick 
Washington, St. Cloud and Mankato Minnesota, Greenville/Spartanburg 
South Carolina, and Slidell Louisiana. Charter also offers service in 
eastern Missouri, including the greater St. Louis metropolitan area, 
the location of our corporate headquarters.
    In these markets, we are aggressively rolling out voice services in 
competition with the incumbent local exchange carriers; often providing 
the first real facilities-based competitive alternative to many 
residential consumers. And, because many of these markets are in less 
densely populated regions, Charter is often the only competitive 
alternative.
    Across all of our markets, the response to our offerings has been 
very positive, as consumers are attracted to Charter by the innovative 
product offering, cost savings, and the convenience of obtaining all of 
their communications services from a single provider. Our research 
indicates that we save the average consumer 20 percent or more on their 
monthly telephone bill. New customers can sign up for Charter's 
unlimited nationwide service for as low as $29.99 per month, which 
provides substantial savings to our customers as compared to most 
traditional telephone service providers. In addition, Charter provides 
meaningful value added services such as call waiting, caller ID, call 
forwarding, etc. And, of course, Charter's service has always provided 
full E-911 calling functionality. The savings and value of our service 
can be further enhanced by bundling with Charter's digital cable and 
broadband Internet services, for as low as $99.97 per month.
    Because Charter is aggressively deploying its voice communications 
service to tens of thousands of potential new customers in new markets 
it relies heavily on the number porting process to compete with the 
incumbent providers in those markets. In fact, Charter engages in 
approximately thirteen thousand (13,000) number porting transactions 
every week. Unfortunately, in the course of those porting transactions 
Charter experiences a fall out rate of over fifteen percent (15 
percent). This rate translates to over 150 rejected orders every day 
where the customer is at risk of losing dial tone when a port cannot be 
canceled or rescheduled as a result of lack of carrier cooperation. As 
such, Charter is acutely aware of the value of efficient and effective 
porting procedures, and the very real costs incurred (including 
operational costs, loss of revenue, and particularly customer 
frustration and dissatisfaction) when porting procedures are undermined 
or disregarded by other providers.
    In addition, when ports take an unreasonably long time to complete, 
it is extremely difficult for Charter to compete in those carriers' 
service territories because a subscriber wishing to move to Charter's 
service, and port its numbers to Charter, must sometimes wait for as 
long as 2 weeks before they can switch providers. When faced with the 
response that ``it will take 2 weeks before we can begin to provide you 
service using the same phone number'' many subscribers simply decline 
to continue the process and remain with the incumbent provider.
    Even despite these hurdles, our experience demonstrates that 
consumers are craving voice competition. Market research bears this 
out. For example, one recent study by Microeconomic Consulting and 
Research Associates, Inc. (``MICRA'') estimates that 23.7 million 
households will subscribe to cable digital phone services by the year 
2011. In addition, the MICRA study demonstrates that based on the 
competitive rates offered by many cable-telephony providers, the 
provision of competitive cable-provided voice services could result in 
annual benefits to the economy of $1.3 billion in 2007, climbing to 
$3.2 billion in 2011. The sum of these potential benefits, according to 
the MICRA study, for the 5-year period is $11.2 billion.\1\ And 
according to a 2006 J.D. Power report, cable voice customers are saving 
over $10 a month on their bills.\2\ In short, cable-provided voice 
services are fulfilling Congress' original vision of a robust and 
competitive residential voice services market. It is no surprise, then, 
that the cable industry trade association, the NCTA, estimates that as 
of the first quarter of 2007 the cable industry is providing digital 
phone service to 10.8 million customers.
---------------------------------------------------------------------------
    \1\ See http://www.micradc.com/news/publications/pdfs/
MiCRA_Report_on_Consumer_
Benefits_from_Cable.pdf.
    \2\ Press Release, J.D. Power and Associates Reports: Cable 
Companies Dominate Customer Satisfaction Rankings for Local and Long 
Distance Telephone Service (July 12, 2006).
---------------------------------------------------------------------------

Number Portability is Vital to the Continued Expansion of Competitive 
        Voice Service Offerings
    But as our daily experience demonstrates, this progress could be so 
much better. Indeed, the emergence of a truly competitive market for 
local voice services is conditioned, in large part, on the continued 
development and implementation of a national number porting policy that 
is clear, effective, and applied consistently to all covered providers.
    This is, of course, a well established fact that Congress has long 
recognized. But the devil is in the implementation details. Indeed, 
during its work leading up to enactment of the pro-competitive 
Telecommunications Act of 1996, Congress noted that the inability of 
consumers to retain their telephone numbers when changing local service 
providers undermines the development of local competition. Thus, by 
specifically imposing the statutory obligation on all local exchange 
carriers to ``provide . . . number portability in accordance with 
requirements prescribed by the Commission'' \3\ in the 1996 Act, 
Congress has already recognized the critical importance of establishing 
a fundamental number porting duty on all LECs, both incumbents and new 
entrants.
---------------------------------------------------------------------------
    \3\ 47 U.S.C.  251(b)(2).
---------------------------------------------------------------------------
    As a result, Congress removed a significant barrier to competition 
by ensuring that consumers can change carriers without having to give 
up their existing telephone numbers. That simple function--the ability 
to retain your telephone number when moving from one provider to 
another--is a key feature for most consumers and an essential tool to 
any competitive provider. The FCC itself has noted that the absence of 
number portability functionality ``likely would deter entry by 
competitive providers of local service because of the value customers 
place on retaining their telephone numbers.'' \4\ In implementing its 
rules to effectuate Congress' mandate of uniform number porting 
obligations, the FCC specifically cited evidence that customers would 
be reluctant to switch carriers if they were required to change 
telephone numbers. Specifically, the FCC found that to the extent that 
customers are reluctant to change service providers due to the absence 
of number portability, demand for services provided by new entrants 
will be depressed. That, in turn, would discourage entry by new 
competitive providers and thereby frustrate the pro-competitive goals 
of the 1996 Act.\5\
---------------------------------------------------------------------------
    \4\ In re Telephone Number Portability, First Report and Order & 
Further Notice of Proposed Rulemaking, 11 FCC Rcd. 8352, 8367-68 
(1996).
    \5\ Id.
---------------------------------------------------------------------------
    These findings illustrate the fact that effective number porting is 
critical because the ability to retain telephone numbers gives 
customers greater flexibility in evaluating the quality, price, and 
variety of services they choose to purchase. As a result, customers are 
empowered to respond to competitive price and service changes without 
having to change their telephone numbers.

Porting Principles That Will Enhance Competition and Further Benefit 
        Consumers
    While the policies established by Congress and the FCC to date have 
been beneficial, the implementation of additional principles would 
further enhance the competitive landscape, and ultimately benefit 
consumers. These principles revolve around the goal of ensuring timely 
and efficient porting processes for all providers. Specifically, 
Charter believes that implementation of the following principles would 
be critical steps to achieve that goal: (1) ensure that number porting 
occurs as quickly and efficiently as possible, based upon the delivery 
of only that information which is absolutely necessary to complete a 
porting request; (2) require all wireline providers to continue 
providing dial tone service if a port request is not, or cannot be, 
completed at the scheduled time; and (3) reaffirm that wireline 
providers may not recover any number portability costs via 
interconnection charges, administrative service order fees, port fees, 
or other ``add-ons'' to interconnection charges to other providers.
    Based upon the practical experience Charter has gained by competing 
in multiple residential voice services markets, we are confident that 
these principles, if implemented, would further Congress' goal of 
reducing barriers to entry and accelerating competitive entry to the 
business and residential voice marketplaces. For that reason, Charter 
has already filed comments with the FCC urging the Commission to take 
actions necessary to implement these principles.
    First, incumbent telephone companies often require requesting 
providers, including Charter, to complete complicated service ``order 
forms'' that require numerous data points, many having little--if 
anything--to do with the processes necessary to port a telephone 
number. This creates barriers to efficient porting and, by extension, 
obstructs facilities-based competition by entities like Charter. By 
requiring competitors to provide data that is often unrelated to 
porting, the incumbents have created a process which leads to an 
increase in the number of port requests that are rejected, not 
completed, or that require rescheduling. There is no reasonable 
explanation or justification for requiring all of the information in 
these order forms. Accordingly, when incumbent providers request such 
information it raises the question of whether they are simply using the 
porting process to delay, or deny, port requests by competitors in 
order to delay market entry by competitors like Charter. If so, such 
activity raises competitor and consumer costs, creating real barriers 
to effective facilities-based competition. For these reasons Charter 
believes that port requests must be validated, and completed, after the 
competitive provider supplies the minimum necessary information to 
complete the port, generally the name, address, and phone number of the 
subscriber.
    In addition, although the FCC has established that all wireline 
providers must complete port requests within four business days, many 
providers do not. Those providers that are unable or unwilling to 
complete the porting interval within that window are often CLECs, non-
RBOC incumbents, or CLECs associated with ILECs that operate in less 
densely populated areas of the country. Many carriers in this group 
take well over 4 days to return a firm order commitment date resulting 
in a time-line of anywhere between five and twelve business days to 
complete a port request. Therefore, another important principle that 
could benefit competitors and consumers is that all wireline carriers, 
no matter their size or position in the market, must complete wireline-
to-wireline ports within four business days, when requested by another 
provider, consistent with existing FCC rules.
    Second, there are some instances when a port request is scheduled 
to occur, but for one reason or another the request can not be 
completed because of an operational or customer issue. When a port 
request can not be completed before 5 p.m. on the day of the scheduled 
port, some providers will simply terminate service to the subscriber 
rather than wait for the port to be completed at a later time. When 
this happens Charter is able to provide service on an emergency basis 
to make sure that the subscriber will continue to have access to voice 
services while the port is completed; however, a new number must be 
assigned to that customer and dial tone is typically interrupted for 
one or more days. This policy of simply terminating service upon the 
scheduled port date, regardless of whether the number has actually been 
ported, and even with an emergency installation of service using an 
alternate phone number, creates significant problems for the affected 
subscribers. This entire process leaves the customer with the 
impression that Charter (rather than the incumbent who caused the 
issue) is to blame for a loss of service, and unnecessarily puts the 
subscriber in harms way by denying consumers access to basic local 
voice services for a period of time. Thus, all providers should adopt a 
policy of not terminating numbers from their switch for at least forty-
eight (48) hours after the scheduled port request is completed. This 
would ensure that customers do not lose service, or access to their 
telephone number, in the event that a port can not be completed on the 
scheduled date.
    Finally, in addition to the practices described above, several 
carriers continue to attempt to impose carrier-to-carrier charges, 
fees, or ``add-ons'' to such charges, for completing customer requests 
to port a number from the carrier's network to Charter's network. 
Although the FCC has repeatedly ruled that carriers must recover the 
costs of number portability via tariffed end-user charges, rather than 
via charges on competing carriers, several incumbent carriers continue 
to ignore those rulings and act in blatant disregard of the FCC's 
directives. Some providers attempt to mask these charges, and claim 
that they are associated with the recovery of ``administrative costs'' 
related to porting, despite the fact that these actions clearly cover 
costs associated with completing port requests. Accordingly, another 
principle essential to continuing the competitive benefits of efficient 
number porting is the notion that incumbent LECs may not recover any 
costs associated with porting via any charge, fee, or add-ons to 
interconnection charges to other providers.
    In conclusion, implementation of these principles would further the 
establishment of fair and efficient number porting processes for 
competitive providers. Such processes are necessary because there are 
essentially no market forces in place to provide incentives to 
incumbent providers to develop efficient porting practices. Because 
incumbent providers are currently losing far more customers than they 
are gaining, they have no market-based incentive to implement efficient 
processes to port numbers to competitive providers such as Charter.
    Implementation of these principles will further enable competitive 
providers like Charter to increase existing efforts to provide 
competitive voice services in many smaller, and more rural markets, to 
the benefit of both consumers and businesses in such markets.
    Thank you, Mr. Chairman for the opportunity to appear before you 
today. I will be happy to answer any questions you or the other 
committee members may have.

    The Chairman [presiding]. I thank you very much, I'm sorry 
I'm late.
    Our next witness is Mr. Jonathon Banks. Mr. Banks?

  STATEMENT OF JONATHAN BANKS, SENIOR VICE PRESIDENT, LAW AND 
                 POLICY, USTELECOM ASSOCIATION

    Mr. Banks. Thank you, Chairman Inouye, and Vice Chairman 
Stevens. I'm pleased to be here to discuss USTelecom's 
perspective on the Same Number Act of 2007.
    Number porting is hard in today's landscape of competition 
for consumers and the voice services they are looking for. 
Porting requirements began in the wireline world, and were 
extended in 2003 to wireless carriers. Since that time, there 
have been over 57 million ports, according to FCC statistics. 
Just over half of those ports have been between wireline 
carriers and under 3 percent have involved customers taking 
their number from a wireline carrier, to a wireless carrier.
    The processes for porting have steadily improved over time, 
and this is certainly true for intermodal ports. One of our 
member companies reports that for all of 2006, the number of 
complaints they received, concerning intermodal ports, was 
nine, and that's out of 900,000 intermodal ports that that 
company performed.
    USTelecom and its members have been very instrumental in 
bringing number portability to American consumers, and we've 
done this in a number of ways. One way, beginning in January of 
2003, was getting together with CTIA, and putting together a 
group of technical experts, to look at some of the current--the 
problems in 2003--that were occurring in intermodal porting, 
and to work out solutions to those problems. That group worked 
well, there was a backlog for various reasons, it was 
eliminated due to the, kind of, inter-industry cooperation to 
improve the process.
    The other area where our member companies and USTelecom has 
been very active, is with the industry standards bodies that 
are reviewing the porting process, and the ordering process. 
The leading group in this area is the North American Numbering 
Council, it's often referred to as NANC. NANC is a Federal 
Advisory Committee made up of representatives from carriers 
from across the industry, from trade associations, and consumer 
advocates and representatives of state public service 
commissions.
    The other key industry group is the Ordering and Billing 
Forum, which looks at the ordering forms involved in this 
process, and in ordering other services from our companies. 
Those two groups have worked long and hard on the number 
porting process, to develop the right ordering forms, and the 
right processes and procedures.
    In fact, in 2003, the FCC asked NANC to review the 
intermodal porting process, and come up with suggestions. NANC 
appointed a working group that spent thousands of hours looking 
at the processes, and understanding them from the wireline 
side, and the wireless side, to come up with a range of 
potential solutions. NANC did that, and attached some cost 
estimates to solutions. Some of the solutions are extremely 
expensive and, according to NANC, would cost a billion dollars 
or more to implement.
    Our members believe that the continued streamlining and 
improvements in porting processes are important. The 
efficiencies save them money. But we believe the best place for 
improvements to occur is in these industry standards bodies, 
where all the affected carriers can get together and work out 
solutions that serve consumers, and are implementable.
    I'd like to make just a couple of quick points, about 
allegations that the process of porting is too complicated. 
First, as both competitive carriers on the wireline side, and 
incumbent wireline carriers have made clear, and as NANC has 
found, the wireline network is a complicated network, and it's 
different from the wireless network, and the two can't be 
treated the same.
    In fact, on the wireline side, there's also a large number 
of smaller and rural carriers that do not have automated 
processes for porting numbers, and this can require flexibility 
on the part of carriers that have to deal with these smaller 
companies.
    Second, the complexity of ordering ports has been 
substantially overstated. Although some wireless carriers have 
pointed to a generic ordering form that contains over 100 
fields, they haven't been very forthright at clarifying that 
only about 25 of those fields have to be filled out to order a 
port.
    Now, that form was developed by the Ordering and Billing 
Forum, as a generic form so that carriers could use it to order 
a broad range of services. Not all of those fields have to be 
filled out on any particular order, and as I said, roughly 25 
need to be filled out to order a port. But a number of those 
fields can be automatically populated by the carrier ordering 
the port--fields that ask for the company's name and contact 
information at the company, in case something goes wrong.
    Finally, allegations that 30 percent of requests for 
intermodal ports are canceled, appear to us to have no basis in 
fact. Some of our largest members operate both wireless and 
wireline networks, and have not noted a problem of that 
magnitude with cancellations. Some of our smaller members have 
tracked data on cancellations, and their data shows that the 
cancellation rate is about 5 percent, which is the same as it 
is among wireless carriers.
    Mr. Chairman, we also appreciate the opportunity to comment 
on the Same Number Act of 2007. As I indicated in my written 
statement, there are two issues on which we would like to 
continue to work with the Committee, but our members do endorse 
the goal of this legislation, which is to further streamline 
the process of porting.
    Thank you, again, for the opportunity to appear, and I look 
forward to working with the Committee on this issue.
    [The prepared statement of Mr. Banks follows:]

     Prepared Statement of Jonathan Banks, Senior Vice President, 
                 Law and Policy, USTelecom Association

    Chairman Inouye, Vice Chairman Stevens, members of the Committee: 
Thank you for this opportunity to appear before you today. I am 
Jonathan Banks, Senior Vice President for Law and Policy for the 
USTelecom Association. I am pleased to appear before this committee to 
discuss USTelecom's perspective on telephone number porting, as well as 
the provisions of the proposed ``Same Number Act of 2007.''
    USTelecom represents innovative companies ranging from the smallest 
rural telecoms in the Nation to some of the largest corporations in the 
U.S. economy. Our member companies offer a wide range of services 
across the communications landscape, including voice, video and data 
over local exchange, long distance, Internet, and cable networks. 
USTelecom is the Nation's most established--and largest--association 
representing rural telecom providers.
    USTelecom and its member companies have been instrumental in 
bringing number portability to American consumers and have made 
significant contributions toward making portability more efficient. For 
over a decade, our members have seen number portability become an 
increasingly important facet of a competitive telecommunications 
service marketplace. However, the introduction of communications 
platforms different from traditional wireline--including cable systems, 
fixed wireless, and mobile wireless--has made the process more complex. 
Our members have a strong interest in improving the efficiency of the 
number porting process, and we agree that inter-modal porting could be 
further streamlined.
    To put number portability in perspective, since November 2003 when 
portability was extended to wireless carriers, there have been 
approximately 57 million ports. Fewer than 3 percent of these ports 
have involved customers moving from wireline to wireless. In addition, 
the Federal Communications Commission has been active on porting 
issues, and it is not an area over which the Federal Communications 
Commission lacks statutory authority. The Commission has the requisite 
authority, and has exercised it accordingly. Since 1997, the wireline 
local exchange carrier community has worked tirelessly--and with a high 
level of efficiency--to implement Federal mandates addressing local 
number portability. In 2003, the FCC issued an order mandating both 
wireless number portability and portability between wireline and 
wireless networks. Despite technical challenges, local exchange 
carriers have cooperated and contributed significant energy to support 
inter-modal number portability.
    In January 2003, USTelecom and CTIA formed a joint working group to 
solve the early technical and implementation problems inherent in 
inter-modal porting. Experts from member companies worked together to 
investigate the cause of inter-modal porting failures and to come up 
with solutions to alleviate the backlog of consumer porting requests. 
The working group discovered that the clearinghouses used by the 
wireless carriers were not equipped to handle port request validation 
queries, so many requests were simply dropped without either side 
knowing why. The combined USTelecom-CTIA team determined the 
appropriate technical requirements for clearinghouses to meet. The 
group also decided that until the clearinghouses could automate inter-
modal porting, protocols for manual porting should be implemented. 
These changes have resulted in substantial improvement. For example, 
one of our member companies reports that for all of 2006, the company 
received a total of nine porting complaints out of approximately 
900,000 number ports.
    On November 10, 2003, the FCC asked the North American Numbering 
Council (NANC) to offer suggestions for improving inter-modal porting. 
The NANC is a Federal Advisory Committee comprised of representatives 
from carriers, trade associations such as CTIA, USTelecom and NCTA, 
cable operators, VoIP providers, and consumer advocates. The committee 
advises the FCC and makes recommendations based on committee consensus. 
The Commission has identified the NANC's tasks and objectives in 
multiple Commission proceedings, and number portability is one of those 
tasks.
    A NANC working group consisting of both USTelecom member companies 
and wireless carriers generated two proposals, and on May 3, 2004, the 
NANC sent William Maher, Chief of the FCC's Wireline Competition 
Bureau, a formal report. The ``Report & Recommendation on Intermodal 
Porting Intervals'' recommended a porting procedure that would shorten 
porting times and also identified additional issues that need to be 
addressed by industry and regulatory bodies.
    USTelecom's members believe that porting is best addressed by the 
Commission, working in conjunction with the North American Numbering 
Council. Currently, the NANC and the Ordering and Billing Forum (OBF) 
have ongoing efforts to resolve issues of inter-modal porting. We 
believe that these two industry organizations are well-suited to 
address the streamlining of the porting process, and they will do so 
with consumer well-being in mind. Already, their ongoing evaluation of 
porting practices is geared toward reducing inter-modal porting 
intervals and making the porting process more satisfactory to 
consumers.
    USTelecom encourages the continuation of joint government-industry 
working groups like the NANC, and its Local Number Portability Working 
Group sub-group. This working group has successfully resolved issue 
after issue and will continue to do so. At the end of my statement I 
have affixed a table summarizing the working group's results to date. 
We feel that these groups should remain the primary source for 
technical solutions. The communications industry has shown repeatedly 
that it can solve technical issues through innovation and market-driven 
solutions, and USTelecom supports the continuation of entrepreneurial 
problem-solving with respect to local number portability.
    Mr. Chairman, we also appreciate the opportunity to comment on the 
``Same Number Act of 2007.'' Our members endorse the ostensible goal of 
this proposed legislation, which is to further streamline the number 
portability process. Furthermore, we agree with the content of Section 
715(a) in the proposed bill, which establishes a duty of all voice 
service providers to provide number portability.
    However, as the Committee continues to perfect this bill, let me 
offer two thoughts. First, while section 715(b) requires in paragraph 
(1) the establishment of ``reciprocal number portability standards,'' 
subparagraphs (B) and (b)(2) permit discriminatory treatment of 
providers given the Commission's authority to ``establish more flexible 
standards or delayed deadlines for different classes of providers.'' 
USTelecom members are invariably on the receiving end of these more 
onerous requirements.
    Second, Section 715(c) would require voice service providers to 
report to the Commission on their porting activities for the 12 months 
preceding the date of issuance of Section 715(b) required porting 
rules. This is an overly onerous requirement. As I mentioned earlier, 
there have been more than 57 million ports since November of 2003. To 
report on this activity and explain why any given port fails would be 
an overwhelmingly burdensome undertaking.
    Mr. Chairman, thank you again for the opportunity to appear today. 
USTelecom member companies have always cooperated in numerous industry 
fora for the improvement of telecommunications services, and we will 
continue to do so. USTelecom and its member companies look forward to 
our continued work with the Committee and will continue to work through 
the Commission and NANC to streamline the porting process.

            North American Numbering Council--April 10, 2007

  Local Number Portability Administration Working Group Status of Open
   Industry Issues and Issues Submitted and/or Resolved Since May 2004
------------------------------------------------------------------------

------------------------------------------------------------------------
Issues Submitted:                                                    122
    Issues Resolved:                                                  96
    Issues Remaining Open or Unresolved:                              26
    Percentage of Issues                                             79%
    Resolved:
------------------------------------------------------------------------


    The Chairman. Thank you very much, Mr. Banks.
    And, may I now recognize Mr. Chris Guttman-McCabe, Vice 
President, Regulatory Affairs, CTIA--The Wireless Association.

            STATEMENT OF CHRISTOPHER GUTTMAN-McCABE,

              VICE PRESIDENT, REGULATORY AFFAIRS,

                CTIA--THE WIRELESS ASSOCIATION

    Mr. Guttman-McCabe. Thank you. Good morning, Chairman 
Inouye and Vice Chairman Stevens. Thank you for the opportunity 
to appear before you today, to discuss the importance of 
streamlining the number porting process.
    On behalf of CTIA--The Wireless Association, I am 
Christopher Guttman-McCabe, Vice President of Regulatory 
Affairs. I am here to testify that the wireless industry has 
developed an efficient and simple porting process that should 
be the model for all porting. We believe that reform consistent 
with this model is necessary to ensure that consumers can take 
full advantage of the choices provided by emerging, intermodal 
competition.
    In 1996, with the leadership of this Committee, Congress 
added section 251(b)(2) to the Communications Act, requiring 
all local exchange carriers to offer number portability. The 
Federal Communications Commission later extended that 
requirement to the wireless industry.
    Wireless carriers responded to the porting requirement by 
adopting a limited, but standardized, set of criteria necessary 
to complete a simple porting request. This process has been 
further streamlined to include just a few elements--lowering 
the average time to complete a customer porting request to just 
two and a half hours.
    During the second quarter of 2006, the most recent data 
available, wireless carriers successfully implemented 2.4 
million intramodal ports, wireless-to-wireless, allowing 
wireless consumers to change carriers easily and efficiently, 
while keeping their telephone numbers.
    CTIA member companies seek to grow, not just by taking 
customers from one another, but also by marketing their 
services as a replacement for traditional landline service. 
Unfortunately, the unnecessary complexity of wireline-to-
wireless porting, often forces consumers to abandon their 
landline numbers, or give up on the process entirely. Neither 
outcome should be acceptable to policymakers.
    In the Wireless Porting Order, the Commission unambiguously 
determined that consumers must be able to change carriers, 
while keeping their telephone numbers, as easily as they may 
change carriers without taking their numbers. The Commission 
also stated that carriers need only share basic contact and 
technical information sufficient to perform the port.
    Unfortunately, despite clear direction from both Congress 
and the Commission, the benefits of speedy, efficient, and 
simple porting are not yet available to all consumers. Many 
local exchange carriers unnecessarily complicate the porting 
process, and frustrate consumers by requiring the porting-in 
carrier to provide information well beyond what is needed to 
effectuate a successful port.
    While the Commission has allowed market forces to dictate 
specific procedures to be used for number portability, it must 
recognize that the incumbent local exchange carriers generally 
lack both the incentive to allow customers to switch seamlessly 
to a competitor, as well as the interest in remedying the 
situation expeditiously.
    In fact, a number of local exchange carriers have urged the 
Commission to defer to the NANC, or the ATIS Ordering and 
Billing Formum, to resolve these measures. Unfortunately, the 
issue has been before these groups since July, 2004, and they 
have been unable to reach the consensus required to resolve 
these porting validation issues. It is time for the Commission 
to intervene.
    The T-Mobile/Sprint petition filed last December provides 
the Commission with the timely opportunity for such 
intervention. Two facts from the petition suggest that action 
is warranted.
    First, the inefficiency of the LEC process is starkly 
highlighted when it is compared to the intramodal wireless 
porting mechanism in use today. For simple wireless-to-wireless 
ports, numbers are usually ported in a matter of hours, whereas 
those involving the LECs often take days, or weeks.
    In wireless-to-wireless ports, consumers are generally 
unable to detect any difference between changing carriers with 
porting, and changing carriers without porting.
    Second, the difference in the amount of information 
required to finalize the two different types of ports also is 
stark. Wireless carriers initially required nine data fields to 
port a customer, then cut it to four, and now--at times--three. 
In contrast, Sprint and T-Mobile attached to their filing a 
sample form with multiple data fields, including fields 
requiring additional engineering, additional forms, additional 
labor, and account regrade. It is difficult to understand how 
this much information could be required to effectuate a simple 
port from one carrier to another, especially when T-Mobile and 
Sprint have limited the application of their requests solely to 
simple ports.
    In wireless-to-wireless ports, a large number of ports are 
completed, less information is exchanged, yet the port takes 
less time, and is more successful. T-Mobile, Sprint, and others 
within CTIA's membership are not alone in recognizing the need 
for reform of the intermodal porting process.
    A number of cable operators, public utility commissions, 
and NARUC have recognized the importance of pro-consumer reform 
in this area. Commission action on this matter is timely, as 
the Commission itself has repeatedly cited expectations of 
increased intermodal competition in approving recent mergers. 
Streamlining the simple porting process is critical to making 
robust intermodal competition a reality.
    Before closing, let me note that CTIA appreciates the 
interest the Committee and its members--especially you, Mr. 
Chairman, and Vice Chairman Stevens--that you have shown in 
this issue. While CTIA believes the FCC has the authority it 
needs to streamline the simple porting process, Congressional 
action to facilitate a pro-competitive, pro-consumer, 
intermodal porting process may be necessary if the Commission 
fails to act in a timely manner. Should that be the case, we 
would look forward to working with the Committee to achieve 
those goals.
    Thank you, and I look forward to any questions you may 
have.
    [The prepared statement of Mr. Guttman-McCabe follows:]

   Prepared Statement of Christopher Guttman-McCabe, Vice President, 
          Regulatory Affairs, CTIA--The Wireless Association

    Chairman Inouye, Vice Chairman Stevens, and members of the 
Committee, thank you for the opportunity to appear before you today to 
discuss the importance of streamlining the number porting process. On 
behalf of CTIA--The Wireless Association<SUP>'</SUP>, I am here to tell 
you that the wireless industry has developed an efficient simple 
porting process that should be a model for the entire industry. At 
CTIA, we view reform consistent with the wireless model as necessary to 
ensure that consumers can take full advantage of the choices provided 
by emerging intermodal competition.
    In 1996, with the leadership of this Committee, Congress added 
section 251(b)(2) to the Communications Act. That section requires all 
local exchange carriers to offer number portability. The Federal 
Communications Commission later determined that the public interest 
would be served by extending the number portability requirement to 
wireless carriers as well.
    Wireless carriers responded to the Commission's call for wireless 
number portability by adopting a limited but standardized set of 
criteria necessary to complete a simple porting request. Over time, 
this process has evolved to include just a few elements, and with 
implementation of this streamlined process, the industry has lowered 
the average time to complete a customer porting request to just two and 
a half hours. During the second quarter of 2006 (the most recent 
quarter for which data is available), wireless carriers successfully 
implemented 2.4 million intramodal ports. This process enables wireless 
consumers to change carriers easily and efficiently while keeping their 
telephone numbers, thus empowering consumers to choose the carrier, 
pricing plan, and features that best serve their individual needs.
    CTIA's member companies seek to grow not just by taking customers 
from one another, but also by marketing their services as a replacement 
for traditional landline service. Unfortunately, the unnecessary 
complexity of wireline to wireless porting often forces consumers to 
abandon their landline numbers or give up on the process entirely. 
Neither outcome should be acceptable to policymakers.
    In the Wireless Porting Order, the Commission unambiguously 
determined that ``consumers must be able to change carriers while 
keeping their telephone number as easily as they may change carriers 
without taking their number with them.'' The Commission also stated 
that carriers may not impose ``restrictions on porting beyond necessary 
customer validation procedures'' and that ``carriers need only share 
basic contact and technical information sufficient to perform the 
port.'' Unfortunately, despite clear direction from both the Congress 
and the Commission, the benefits of speedy, efficient, and simple 
porting are not yet available to all consumers. Many local exchange 
carriers unnecessarily complicate the porting process and frustrate 
consumers by requiring the porting-in carrier to provide information 
well beyond what is needed to effectuate a successful port.
    While the Commission has allowed market forces to dictate the 
specific procedures to be used for number portability, it must 
recognize that the incumbent local exchange carriers generally lack 
both any incentive to allow customers to switch seamlessly off their 
networks to wireless competitors, as well as an interest in remedying 
this situation expeditiously. In fact, in comments to the Commission a 
number of local exchange carriers have urged the Commission to defer to 
the North American Numbering Council (``NANC'') or the Alliance for 
Telecommunications Industry Solutions (``ATIS'') Ordering and Billing 
Forum to resolve these matters. Unfortunately, these industry groups 
have been unable to reach the consensus required to resolve these 
porting validation issues. The issue has been before the NANC and ATIS 
since July 2004, and the Ordering and Billing Forum (``OBF'') is in the 
process of formally closing the matter. Given that these entities have 
been struggling with these issues for 3 years without resolution, it is 
time for the Commission to intervene.
    The T-Mobile/Sprint petition filed last December provides the 
Commission with a timely opportunity for such intervention. Two 
undisputed facts from the T-Mobile/Sprint petition suggest some action 
is warranted with respect to intermodal porting procedures. First, the 
inefficiency of the incumbent LEC validation process is starkly 
highlighted when it is compared to the intramodal wireless porting 
mechanism in use today. For simple wireless-to-wireless ports, numbers 
are usually ported in a matter of hours with a nominal amount of 
information exchanged by the carriers. In such ports, wireless 
consumers are generally unable to detect any difference between 
changing carriers with porting and changing carriers without porting. 
Second, wireless carriers initially required nine data fields to port a 
customer, then--basically because that made the process less efficient 
and the additional fields were not needed to protect customers' 
choices--cut it to four, then three, data fields. This is clear 
evidence that a less burdensome and uniform process can work quickly to 
protect consumers and competition in a commercial environment.
    Sprint and T-Mobile attached to their filing a sample form with 
more than 100 data fields, including fields requiring input of 
``additional engineering,'' ``additional forms,'' ``additional labor,'' 
and ``account regrade.'' It is difficult to understand how this much 
information could be required to port a customer from one carrier to 
another--especially since T-Mobile and Sprint have recognized that 
additional information is often necessary for validation when 
undertaking ``complex'' porting, and have limited the application of 
their recommended four validation fields solely to simple ports. Simple 
ports are those that: (i) do not involve unbundled network elements; 
(ii) involve an account only for a single line; (iii) do not include 
complex switch translations (e.g., Centrex, ISDN, AIN services, remote 
call forwarding, or multiple services on the loop); and (iv) do not 
include a reseller.
    T-Mobile, Sprint, and others within CTIA's membership are not alone 
in recognizing the need for reform of the intermodal porting process. A 
number of cable operators that are now offering telephony generally 
share our views, and public utility commissions from states as diverse 
as California and Iowa also have recognized the importance of pro-
consumer reform in this area. In fact, in a resolution adopted this 
past February, NARUC endorsed the adoption of a ``simple and uniform 
industry porting process.'' Even parties which oppose the T-Mobile/
Sprint petition, like Embarq and AT&T, acknowledge that reform intended 
to eliminate obstruction or delay is ``reasonable'' (Embarq comments, 
at 1) and that ``streamlining of the [porting process] may be useful 
and desirable'' (AT&T comments, at 3).
    Commission action on this matter is timely, as the Commission 
itself has repeatedly cited expectations of increased intermodal 
competition in approving several recent mergers. Streamlining the 
simple porting process is critical to making robust intermodal 
competition a reality, and the Commission now must rise to the 
challenge before it in a way that advances intermodal competition and, 
most importantly, the interests of consumers.
    Before closing, let me note that CTIA appreciates the interest the 
Committee and its members, especially Senator Stevens, have shown in 
this issue. While CTIA believes that the FCC has the authority it needs 
to streamline the simple porting process, Congressional action to 
facilitate a pro-competitive, pro-consumer intermodal porting process 
may be necessary if the Commission fails to act in a timely manner. 
Should that be the case, we would look forward to working with the 
Committee to achieve those goals.
    Thank you, and I look forward to any questions you may have.

    The Chairman. Thank you very much.
    Our next witness is Mr. Tony Clark, Commissioner of North 
Dakota Public Service Commission, and Chairman of the 
Telecommunications Committee of the National Association of 
Regulatory Utility Commissioners. Long title.

          STATEMENT OF HON. TONY CLARK, COMMISSIONER,

            NORTH DAKOTA PUBLIC SERVICE COMMISSION;

            CHAIRMAN, TELECOMMUNICATIONS COMMITTEE,

   NATIONAL ASSOCIATION OF REGULATORY UTILITY COMMISSIONERS 
                            (NARUC)

    Mr. Clark. It is. That's why we say NARUC, usually.
    Mr. Chairman, and Mr. Vice Chairman, thank you for the 
invitation to speak before you today on behalf of Utility 
Commissioners across the country. Thank you for the opportunity 
to present, again, our Association's views before this 
Committee.
    Mr. Chairman, I would simply note that NARUC has been an 
early and persistent advocate for number portability. Over the 
years, we've filed numerous pleadings, agreeing with the FCC's 
assessment that the competition resulting from portability 
should foster lower local telephone prices, and consequently, 
stimulate demand for telecommunications services, and increase 
economic growth.
    As this hearing suggests, there are some outstanding issues 
that need resolution. Most recently, in January of this year, 
the FCC noticed a comment on a December 2006 T-Mobile and 
Sprint/Nextel petition for declaratory ruling, asking the FCC 
to end an ongoing controversy regarding the Commission's 
requirement that only ``necessary'' validation procedures be 
utilized in the porting process.
    The petitioners, citing unwarranted delays in the process, 
seek a ruling that all carriers be obligated to provide number 
portability, may not obstruct or delay the porting process by 
demanding from the porting-in carrier information in excess of 
the minimum information needed to validate the requesting 
customer.
    While portability has generally worked well to stave off 
exhaust, and to promote competition, some concerns raised by 
that petition highlight some problems with the current process 
and seem particularly relevant to the draft legislation we 
understand may be introduced on this issue.
    In February of this year, our Association responded to the 
notice by passing a resolution addressing the Sprint/T-Mobile 
proceeding that specifically endorses a porting process that is 
uniform throughout the industry, and relatively simple to 
implement. A copy of that resolution is submitted with my 
testimony.
    The ability of any carrier to effectively port in a 
customer is directly tied to the practices of the carrier that 
will be porting out the customer. Sprint and T-Mobile have told 
the FCC that some carriers have adopted practices that 
complicate and prolong the porting out process, and thus hinder 
the effectiveness of competition. They point out that these 
practices, in fact, delay a competitor's ability to activate 
the number--often for weeks or months--resulting in, in their 
words, a frustrating customer experience, and unnecessarily 
high port cancellation rate, and ultimately a barrier to 
competition.
    The current statistics that are cited in that particular 
docket seem to bear out that there is some sort of problem. 
While the consumer cancellation rate for intramodal--that is to 
say, wireline-to-wireline ports--is about 5 percent, the 
cancellation rate for intermodal ports--that is wireless-to-
wireline--is approximately 30 percent. They also argue that 
onerous and non-standard ILEC validation procedures are the 
root cause for the disparity in those rates.
    NARUC has taken the position that, at a minimum, the FCC 
must investigate to see if a more streamlined process like that 
that works so well in the wireless-to-wireless environment, can 
work in the intermodal ports.
    NARUC has urged the FCC to immediately act to prohibit 
onerous and non-standard porting practices as anti-competitive 
and anti-consumer. The statistics on porting cited in this open 
docket suggest both the Commission's, and Congress's primary 
purpose in establishing portability obligations is being 
frustrated. Something, we believe, must be causing almost a 
third of customers to cancel their wireline-to-wireless ports. 
We may not know what it is, but something must be happening.
    We have urged the Commission to--at a minimum--clarify its 
2003 ruling that carriers may not impose restrictions on 
porting, the unnecessary validation procedures. And while we 
took no specific stance on the specific T-Mobile/Sprint 
proposal, we also urged the FCC to establish a uniform industry 
porting process, to assure that all service providers comply 
with uniform industry porting guidelines, and work 
cooperatively with other carriers in resolving disputes.
    We hope that Congress's interest in this issue will--at a 
minimum--provide additional information and incentives for FCC 
action.
    That concludes my testimony, I'd be happy to answer any 
questions you might have.
    [The prepared statement of Mr. Clark follows:]

   Prepared Statement of Hon. Tony Clark, Commissioner, North Dakota 
  Public Service Commission; Chairman, Telecommunications Committee, 
    National Association of Regulatory Utility Commissioners (NARUC)

Introduction
    Chairman Inouye, Vice Chairman Stevens and members of the 
Committee, as always, we are extremely grateful to each of you for the 
opportunity to testify today on Number Portability.
    I am Tony Clark, commissioner with the North Dakota Public Service 
Commission and a member of the National Association of Regulatory 
Utility Commissioners (NARUC). I serve as chairman of NARUC's Committee 
on Telecommunications. NARUC represents State utility commissioners in 
each of your States and the U.S. territories that have oversight 
responsibilities over telecommunications, energy, water and other 
utilities.
    State Commissions Share Your Concerns and are a Valuable Source of 
non-biased Expert Advice on the Impact of Any Policy Choices on 
Constituents in your Respective States.
    Some State commissioners, like me, stand for election as each of 
you do. Others are appointed by our Governors. But every single State 
Commissioner, as a leader in each of your States, is, like you, 
ultimately accountable to the voters. Your State commissioners share 
your commitment to assuring that each of your constituents receives the 
benefits of broadband convergence, new wireless technologies and 
competitive markets. In almost all cases, the Commissioners on your 
State commission will have an intense and almost complete identity of 
interest with you on policy goals for your respective States. Perhaps 
of more significant to each of you, they will have a firm grasp on the 
markets in your State and informed and non-biased expert opinions on 
how your policy choices may impact constituents in your State. Many of 
you know your State commissioners and all of us have worked hard, not 
just at our day jobs, but to be honest brokers on how national policies 
impact each of our States.
    I know it is difficult to sort through the myriad of policy 
questions Congress routinely faces, but I would respectfully suggest 
that a continuing partnership with State-level colleagues that share 
your interests is key. And it's a key that both Congress and various 
Federal agencies have employed repeatedly and successfully in the past 
to address difficult policy issues.\1\ Certainly seeking the opinions 
of similarly situated, non-biased experts from your respective States 
can only assist you in addressing these problems. That's only one of 
the reasons why we commend you and the committee for holding this 
hearing on number portability--which ultimately protects competition 
and area codes from premature exhaust--both goals States share with 
Congress and the Federal Communications Commission. We particularly 
appreciate your setting aside time to hear from your ``beyond the 
Beltway'' colleagues.

An Efficient Porting Process is Critical to Competition
    An efficient Number Portability process is critical to both efforts 
to enhance intermodal and intramodal competition and also NARUC's State 
member efforts to constrain State-specific area code exhaust. There is 
at least one open and pending Federal Communications Commission 
proceeding on this issue.
    Even if Congress is unable to move legislation on this issue, we 
recognize that this hearing alone will undoubtedly provide additional 
impetus for FCC action in that and any related dockets.

NARUC has been an Early and Persistent Advocate for Portability
    In 1996, Congress added 47 U.S.C.  251(b)(2) to the Communications 
Act. That section requires all local exchange carriers (``LECs'') to 
offer number portability in compliance with FCC rules. That same year, 
the Commission determined that the public interest would be served by 
extending the portability requirement to wireless carriers as well as 
the incumbent LECs.\2\ NARUC strongly supported this FCC initiative. We 
filed numerous pleadings agreeing with the FCC's assessment that the 
competition resulting from portability ``should foster lower local 
telephone prices and, consequently, stimulate demand for 
telecommunications services and increase economic growth.'' \3\

Some Porting Issues Require Immediate Attention
    As this hearing suggests, there are some outstanding issues that 
need resolution. Most recently, on January 9, 2007, the FCC noticed for 
comment a December 20, 2006, T-Mobile USA, Inc. (``T-Mobile''), and 
Sprint Nextel Corporation (``Sprint'') Petition for Declaratory Ruling 
asking the FCC to end an ongoing controversy regarding the Commission's 
requirement that only ``necessary'' validation procedures be utilized 
in the porting process. The Petitioners, citing unwarranted delays in 
the process, seek a ruling ``. . . that all carriers obligated to 
provide number portability may not obstruct or delay the porting 
process by demanding from the porting-in carrier information in excess 
of the minimum information needed to validate the requesting 
customer.''
    While portability generally has worked well to stave off exhaust 
and promote competition, some concerns raised by that petition 
highlight some problems with the current process and seem particularly 
relevant to the draft legislation we understand may be introduced on 
this issue.

NARUC Endorses Uniform Simple Porting Process
    On February 21, 2007, NARUC responded to the notice by passing a 
resolution addressing the Sprint-T-Mobile proceeding that specifically 
endorses a porting process that is uniform throughout the industry and 
relatively simple to implement. A copy of that resolution is submitted 
with my testimony. Several individual NARUC members, including the 
California, Nebraska, and Iowa commissions also filed comments 
encouraging the FCC to establish ``. . . a simple and uniform porting 
process.''

The Time Frame for Porting
    The ability of any carrier to effectively ``port in'' a customer is 
directly tied to the practices of the carrier that will be ``porting 
out'' the customer. Sprint and T-Mobile have told the FCC that some 
carriers have adopted practices which complicate and prolong the 
``porting out'' process, thus hindering the effectiveness of 
competition. They point out that these practices, in fact, delay a 
competitor's ability to activate the number often for weeks or months 
``. . . resulting in a frustrating customer experience, an 
unnecessarily high port cancellation rate, and ultimately, a barrier to 
competition.''
    Two undisputed facts from the T-Mobile-Sprint petition suggest some 
immediate action is warranted with respect to at least LEC porting 
procedures.
    First, T-Mobile-Sprint argue that the inefficiency of the incumbent 
LEC validation process is starkly highlighted when it is compared to 
the intramodal wireless porting mechanism in use today. For simple 
wireless-to-wireless ports, according to these carriers, numbers are 
usually ported in a matter of hours with a nominal amount of 
information exchanged by the carriers. In such ports, wireless 
consumers are generally unable to detect any difference between 
changing providers with porting and changing carriers without porting.

The Need for a Uniform Process
    The second, pointed out later in the petition, is the fact that 
wireless carriers initially required nine data fields to port a 
customer, then, because that made the process less efficient and the 
additional fields were not needed to protect customers' choices, cut it 
to four, then three, data fields.
    This is clear evidence that a less burdensome and uniform process 
can work quickly to protect consumers and competition in a commercial 
environment.
    T-Mobile and Sprint also told the FCC that some LECs are insisting 
on ``outdated and unnecessarily arduous procedures, such as completion 
of port request forms with more than 100 data fields.'' To back the 
allegation, they attached to their filing a sample form with more than 
100 data fields, including fields requiring input of ``additional 
engineering,'' ``additional forms,'' ``additional labor,'' and 
``account regrade.''
    It is difficult to understand how this much information could be 
required to port a customer from one carrier to another. If these 
allegations are true, they certainly support their argument that some 
LECs are imposing onerous and burdensome porting requirements simply to 
slow their churn rates by rendering the porting process complicated and 
time-consuming.
    The churn statistics cited in that proceeding seem to bear this 
out. They point out that while the consumer cancellation rate for 
intramodal (i.e., wireless-to-wireless) ports is about 5 percent, the 
cancellation rate for intermodal ports is approximately 30 percent. 
They also argue that onerous non-standard ILEC validation procedures 
are the root cause for the disparity in rates.
    NARUC has taken the position that, at a minimum, the FCC must 
investigate to see if a more streamlined process, like the one that 
works in the wireless-to-wireless environment can work in intermodel 
ports.
    The petition before the FCC also presents a simple solution for the 
Commission's consideration and suggests no new rules are needed. 
According to the T-Mobile- Sprint Petition, the FCC ``. . . need only 
further clarify that porting-out carriers may not demand information 
from requesting providers beyond that required to validate the customer 
request and accomplish the port.'' The Petition suggests, based on the 
practices of the wireless industry, that LECs, should validate ports 
using no more than four customer validation fields, limiting the 
validation to those fields ``necessary'' to the process.

Conclusion
    NARUC has urged the FCC to immediately act to prohibit onerous and 
non-standard porting practices as anti-competitive and anti-consumer. 
The statistics on porting cited in this open docket suggest both the 
Commission's and Congress's primary purpose in establishing portability 
obligations is being frustrated. Something must be causing almost a 
third of customers to cancel their wireline-to-wireless ports. We have 
urged the Commission to, at a minimum, clarify its 2003 ruling that 
carriers may not impose ``restrictions on porting beyond necessary 
validation procedures'' and, while we took no specific stance on the T-
Mobile-Sprint specific proposal, we also urged the FCC to establish a 
uniform industry porting process to assure that ALL service providers 
comply with uniform industry porting guidelines and work cooperatively 
with other carriers in resolving disputes. We hope Congress' interest 
in this issue will, at a minimum, provide additional information and 
incentives for FCC action.
    Thanks again for the opportunity to testify. I look forward to your 
questions.

Endnotes
    \1\ Indeed, Congress has frequently recognized in legislation the 
importance of Federal Agencies working in tandem with NARUC member 
commissions. See 47 U.S.C.  410(c) (1971) (NARUC nominates members to 
FCC Joint Federal-State Boards which consider universal service, 
separations, and related concerns and provide formal recommendations 
that the FCC must act upon); Cf. 47 U.S.C.  254 (1996) (describing 
functions of the Joint Federal-State Board on Universal Service). Cf. 
NARUC, et al. v. ICC, 41 F.3d 721 (D.C. Cir 1994) (where the Court 
explains ``. . . Carriers, to get the cards, applied to . . . (NARUC), 
an interstate umbrella organization that, as envisioned by Congress, 
played a role in drafting the regulations that the ICC issued to create 
the ``bingo card'' system.) There are also numerous examples of 
successful collaborations between the Federal Communications Commission 
(FCC) and NARUC's members on slamming, truth-in-billing, operator 
service requirements, telemarketing, customer privacy/Caller ID issues, 
and related consumer protection issues. Most reveal the same key 
elements. NARUC's July 2005 Resolution Supporting FCC Slamming Rules 
provides a perfect case study illustrating the practical benefits of 
leveraged/more effective enforcement and reduced consumer confusion 
inherent in this cooperative approach. That CC Docket No. 97-129 
proceeding was premised on specific authority in 47 U.S.C.  258 
(1996). In its First Order on Reconsideration (FCC 00-135), the FCC 
recognized States should have the ability, if they choose, to mediate 
slamming complaints received from consumers within that State. It also 
acknowledged individual States have unique processes, procedures and 
rules regarding slamming complaints. Pursuant to the revised rules, 
States are now able to ``opt-in'' to become the primary forums for 
administering the slamming liability rules and resolving consumer's 
slamming complaints. Although Congress limited the FCC's flexibility 
somewhat, the agency did not take a ``cookie cutter'' approach to 
slamming regulations. Rather the FCC has provided needed flexibility to 
the States to address unique fraudulent activities by establishing the 
regulatory floor and allowing the States to establish more stringent 
rules or the regulatory ceiling--particularly in the area of enhanced 
penalties. Thirty-seven States opted-in to the FCC's approach. There is 
no question oversight of slamming issues has been enhanced through 
collaborative federalism as evidenced by: (i) more extensive 
information sharing on market practices and trends, (ii) decreases in 
complaints, (iii) better coordinated enforcement efforts, and (iv) the 
creation of a ``common front'' in opposition to abusive practices 
affecting consumers of telecommunications services established via the 
FCC's actions. Any other framework effectively removes cops from the 
beat.
    \2\ See Telephone Number Portability, First Report and Order and 
Further Notice of Proposed Rulemaking, 11 FCC Rcd 8352  153 (1996) 
(``First Porting Order'').
    \3\ First Porting Order  30.
    \4\ ``Pleading Cycle Established for Comments on T-Mobile USA, Inc. 
and Sprint Nextel Corporation's Petition for Declaratory Ruling 
Regarding Number Portability'', DA 07-39, (Jan. 9, 2007) Available 
online at: http://hraunfoss.fcc.gov/edocs_
public/attachmatch/DA-07-39A1.doc.

                                Appendix

    February 21, 2007 Resolution Concerning Local Number Portability
    WHEREAS, The National Association of Regulatory Utility 
Commissioners (``NARUC'') has strongly supported the implementation of 
Local Number Portability (LNP) as an important vehicle for consumer 
choice; and
    WHEREAS, LNP provides the opportunity for consumers to easily move 
service between LNP-capable providers while retaining their telephone 
number; and
    WHEREAS, Competition in all voice services has increased the need 
for LNP to realize customer choice between service providers; and 
therefore porting of telephone numbers used by all carriers, including 
LECs, CLECs, wireless carriers and VoIP service providers should comply 
with uniform industry porting guidelines; and
    WHEREAS, NARUC supports policies which encourage the continued 
advancement of competition in telecommunications markets and the 
ability of consumers to take their telephone number with them when they 
opt for a new or different provider's products and services regardless 
of the type of service; and
    WHEREAS, A simpler and more convenient process of porting numbers 
should be considered for adoption as the uniform industry porting 
process in order to accommodate further consumer ease, increase the 
rate of successful port completions and facilitate the further 
advancement of competition; and
    WHEREAS, Various technical industry groups and bodies responsible 
for the setting of industry standards, such as the Alliance for 
Telecommunications Industry Solutions (ATIS), have been unable to 
resolve diverse order processing formats between providers for number 
porting; and
    WHEREAS, The North American Numbering Council (NANC) has examined 
the wireless number portability issues on several occasions over the 
past 8 years, most recently, in response to a request from the FCC, 
including forming an Intermodal Porting Issue Management Group (IMG) 
that produced a report and recommendation in May 2004 setting forth a 
streamlined confirmation and activation process; however, its effective 
implementation has been hindered by the requirement to submit an 
``error-free'' port request; and
    WHEREAS, The ATIS Ordering and Billing Forum (OBF) has been unable 
to develop a more efficient and uniform process for porting between 
wireline and wireless providers through their approval process since 
assignment of the issue in July of 2005; and
    WHEREAS, The challenges regarding number portability for VoIP 
service providers have become increasingly common recently and have 
been raised before a number of bodies including State commissions, both 
for the porting in of a number to a VoIP provider and the porting out 
of a number from a VoIP provider; and
    WHEREAS, The adoption of a simple and uniform industry porting 
process will facilitate consumer choice by improving customers' ability 
to switch carriers when desired, as well as creating a uniform 
understanding, by all parties, of the steps required to port numbers; 
and
    WHEREAS, There is pending before the Federal Communications 
Commission (``FCC''), in Docket CC 95-116, a Petition for Declaratory 
Ruling regarding LNP seeking clarification that carriers obligated to 
provide number portability may not obstruct or delay the porting 
process by demanding information from requesting carriers beyond that 
required to validate the customer request and accomplish the port 
(``Portability Petition''); now, therefore, be it
    RESOLVED, That the Board of Directors of the National Association 
of Regulatory Utility Commissioners convened in its 2007 Winter 
Meetings in Washington, D.C. expresses its support for the adoption of 
a simple and uniform industry porting process; and be it further
    RESOLVED, That NARUC staff shall file comments with the FCC in CC 
95-116, consistent with this resolution, encouraging the FCC to 
establish a uniform industry porting process; and be it further
    RESOLVED, That NARUC also conveys its concerns to the FCC in the 
Number Portability Docket regarding the challenges created by having 
different types of service providers porting numbers to each other, and 
the need for all service providers to comply with uniform industry 
porting guidelines and to work cooperatively with other carriers in 
resolving disputes.
_______________________________________________________________________
Sponsored by the Committees on Telecommunications and Consumer Affairs.
Adopted by the NARUC Board of Directors, February 21, 2007.

              STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    The Chairman. All right, thank you very much, Mr. Clark. 
Without objection, my opening statement will be made part of 
the record.
    [The prepared statement of Senator Inouye follows:]

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii

    More than a decade ago, Congress sought to open our communications 
markets to competition. By removing barriers that impaired the ability 
of new entrants to compete, we sought to usher in a new era of pro-
consumer telecommunications competition.
    Number portability was one of these barriers. Without it, consumers 
would have been required to switch their telephone number whenever they 
switched their service provider.
    To avoid this complication, Congress required the Federal 
Communications Commission (FCC) to implement number portability. As a 
result, consumers can take their phone number with them without the 
hassle, loss of identity, and cost that would otherwise come with 
changing numbers when changing providers.
    New forms of competition like wireless and Voice-over-IP services 
have predictably led to new portability challenges. These services 
raise important, and sometimes technically difficult questions about 
how we might streamline the porting process and provide consumers with 
a swift and glitch-free transition between service providers.
    Today's hearing allows us to explore these issues and to get some 
answers. It also allows us to discuss legislation recently introduced 
by Vice Chairman Stevens and myself that takes a small, yet important, 
step in directing the Commission to establish porting performance 
standards that will promote competition and make it easier for 
consumers to switch services.
    I look forward to working on this issue and to hearing from today's 
witnesses.

    The Chairman. Mr. Vice Chairman?
    Senator Stevens. Thank you very much, Mr. Chairman.
    I want to know, Mr. Schremp, how many of these port orders 
would be normal to come per day in an organization such as 
yours?
    Mr. Schremp. About three-quarters of our new customers 
bring their phone number with them. So, the vast majority of 
our transactions are port-based orders, so that we go through 
the porting process. So, on a daily basis, it's two or three 
thousand, and certainly growing as we expand our business.
    Senator Stevens. Now, there's an assumption here in the 
industry that the cost should be absorbed by the entity that's 
losing the customer, is that right?
    Mr. Schremp. Well, my understanding of the basis is that it 
actually be borne by the end-user consumer, and that it be part 
of the tariff charges that many consumers have incurred for 10 
years now, so when number portability first came about in the, 
sort of, mid- to late nineties, that a lot of those costs were 
borne by the consumer, and continue to be.
    Senator Stevens. That's the consumers of the entity that's 
losing the customer, right?
    Mr. Schremp. That would be the case in terms of the 
majority of the customer base that continues to be with the 
incumbent telephone, that's true.
    In our case, we certainly do port-out transactions as well, 
and we assess no fees to other parties.
    Senator Stevens. Well, let me ask all of you, if the 
customers are moving to a new entity, and the income is going 
to go with that customer, what's the rationale for leaving the 
costs of this porting system on the backs of the losing 
carrier?
    Anyone want to comment on that? It seems to me, there's a 
disincentive here to the losing carrier to move as fast as the 
customer wants, because they're going to have to pay the cost. 
The faster you move--I assume--the greater the cost. Am I 
wrong?
    Mr. Schremp. From my perspective, the greater issue is that 
there are no market incentives, regardless of the 
administrative costs of completing the port. There are--in the 
wireline-to-wireline world, there are no market incentives for 
the incumbent providers to act in an efficient mode. The 
incumbent carriers--pretty much across the board--have been 
losing 6 to 7 percent of their wireline customers on an annual 
basis.
    Senator Stevens. Does the acquiring carrier have any costs 
at all to portability?
    Mr. Schremp. Sure we do, we absolutely do.
    Senator Stevens. What is that?
    Mr. Schremp. So, those costs are the administrative costs 
of populating these forms, the administrative costs of having--
you know, in our case--you know, literally dozens of people 
that do nothing but port transactions.
    Senator Stevens. Any different than taking on a new 
customer?
    Mr. Schremp. Certainly more expensive for us to take on a 
new customer where they port their number. And, the difference 
is----
    Senator Stevens. But, I mean, is it--suppose it's just a 
brand-new customer. Someone moves into the country, they want a 
telephone service. Now, is that going to cost you more or less 
than having a current customer from another entity ask you to 
come to your service.
    Mr. Schremp. Absolutely costs us less. So, in the case that 
we're porting the customer's phone number, our costs are 
certainly $20, $30, $40 higher to complete the port 
transaction. That's sort of the hard cost associated with the 
head count, the human resources required to----
    Senator Stevens. Gentlemen, can any of you tell us, what's 
the relative cost between the entity that's losing the 
customer, and the entity that's gaining the customer?
    Mr. Guttman-McCabe. I can't answer that now, but I could 
get you some information for the record on that, on what it 
costs us to port.
    Senator Stevens. Well, our bill is trying to make it fair, 
but make it customer-friendly, consumer-friendly, and saying it 
must be done as quickly as possible. Now, can that be achieved? 
And, do we need this bill to achieve it?
    Mr. Banks. Well, I think you're right, Senator, to raise 
the issue of the, sort of, a cost-benefit analysis. That there 
are costs to number porting, and there are benefits. The 
benefits are--we don't understand the benefits of moving it 
from 4 days, which is the current deadline, to 3 days or 2 
days.
    But, when NANC spent a lot of time on this, they attached 
some cost estimates, to different solutions to speeding up 
wireline porting, and none of the solutions would move us all 
the way to the wireless intervals. Some would move us closer, 
but could cost billions of dollars, and I think you raise a 
very good point that, those billions of dollars will have to be 
paid by somebody.
    Senator Stevens. Mr. Clark, you're, I understand, the 
Chairman of the Telecommunications Committee. Has that 
Committee analyzed this problem, in terms of balance of cost of 
this porting transaction?
    Mr. Clark. Mr. Vice Chairman, I'm not aware that our 
Committee has done that, most of that would rest with either 
the NANC, or the ATIS industry board.
    However, I think your question raises a valid point, which 
is, when LNP was first set up, recall that the ILECs were 
allowed, for 5 years, to recover the cost of implementing the 
setup of that program. So, I think there was a recognition that 
there is a cost to initially set it up.
    I think it's very worthy of study to decide, if there are 
ongoing administrative costs that need to be recovered, and I 
think NARUC's position would be, if that's a root cause, if 
that's one of the barriers to getting effective porting taken 
care of, then we ought to find some way to knock down that 
barrier.
    Senator Stevens. But if I leave that entity, and ask to 
move my number to a new wireless service--if I leave a wire 
service to go to a wireless service, I understand it takes two 
and a half hours to go to the wireline service, it takes 4 days 
on the wireline service. Now, why is that?
    Mr. Clark. And that's what we're hearing, as well, and 
that's what was really the impetus for our resolution, which is 
that--we don't know what it is, yet, but there clearly is 
something wrong. I mean, if wireless-to-wireless ports can 
happen so quickly, we ask, why cannot wireline-to-wireless 
ports happen with the same type of speed? And I don't think we 
have the answer to that today. But----
    Senator Stevens. Is there uniformity within the industry of 
how it's done?
    Mr. Guttman-McCabe. On the wireless side there is, Senator. 
And that is part of our concern. We recognize and understand 
that there is going to be a cost that will be a portion of, or 
go along with streamlining the wireline-to-wireless process. 
And as Commissioner Clark suggested, there was a cost-recovery 
mechanism in place for the local exchange carriers when this 
requirement was initially put in, by the Committee, and by 
Congress.
    But what we question is why can a wireless-to-wireless port 
happen in two and a half hours, using three or four fields, 
when a wireline-to-wireless happens in a less effective manner, 
taking up to 4 days or beyond, involving, at times, 20, 30, 50 
or more fields.
    Senator Stevens. Mr. Schremp, Mr. Banks--I think, we want 
to be fair in what we're mandating, but it appears to me that 
as--wireless is the new game in town--there are going to be 
more consumers migrating from wireline service to wireless, 
than there is from wireless-to-wireless, or from wireless back 
to the wireline. Why should the customers that remain on the 
telephone system, the wireline system, bear the cost of 
portability to the wireless system?
    Mr. Banks. I think that's a reasonable question. And, I 
would also add that there are--when we compare the 2 hours, to 
the 4 days it takes on the wireline side, that is exactly what 
NANC spent thousands of hours understanding and making 
recommendations about. And it's hard to sum up very quickly why 
it takes longer on the wireline side, but it's a function of 
the fact that wireline networks are different, and incumbents 
have said this, and competitive carriers say this--we both say 
this--it's different, we have loops we have to keep track of, 
we have a number of things we have to keep track of, we have 
networks that have been in place for a long time.
    And, finally, I think all our companies would prefer 
faster, and faster is good, but getting it right is better. And 
if we mess up for a wireline customer that has one line at 
their house, and the port is done incorrectly, so the wrong 
person loses service, that's a very bad thing. And, it's very 
important to avoid that.
    Senator Stevens. Can this be automated between wireline to 
wireless? It looks like it is automated wireless-to-wireless. 
Can it be automated, wireline to wireless?
    Mr. Banks. In fact, the processes are automated on the 
wireline side at the larger companies, their semi-automated at 
some of the medium-sized companies, and at the smaller 
companies, they tend to be completely manual.
    Senator Stevens. So, by definition, the smaller the 
company, the greater the cost if you're going to lose a 
customer?
    Mr. Banks. More or less.
    Senator Stevens. Mr. Chairman, I'm a little worried about 
what we're doing in terms--is our bill really, in the opinion 
of the four of you, is it necessary in order to bring about 
action from the FCC? Mr. Schremp? Let's just go by--I'm going 
to have to give up here in a minute.
    Mr. Schremp. From my perspective, I think one of the key 
points for Charter, is not so much that we need any new 
technology or any new infrastructure that doesn't exist. What 
we're really looking for is, sort of, reinforcement and 
validation of the 4-day rule.
    We have 260 porting partners, we call them, folks that we 
work with to either port numbers in or port numbers out. Fully 
half of which, their published procedures are in violation of 
the 4-days.
    We can make 4 days work. We're not asking for any 
significant new investment or infrastructure, at least at this 
point in time. We think we can make 4 days work, but in many, 
many cases today it doesn't. Including with very large telcos. 
There are folks like Century Tel, and TDS and Citizens, who--
their published processes, be they either manual or automated--
are in violation of the four-day rule.
    We're a fairly small telco. You know, we have 600,000 
customers, so in the grand scheme of telecommunications 
companies for phone, we're fairly small. We're not automated. 
And we abide by the 4-day rule without any problem whatsoever. 
And the port----
    Senator Stevens. Can you do it shorter than 4 days?
    Mr. Schremp. We absolutely can. The port-out process for 
us----
    Senator Stevens. Does it increase your cost?
    Mr. Schremp. To a degree it does, to deal with, sort of, 
peaks and valleys in terms of, of volume, perhaps. You know, 
any time you compress a process. But it takes us 2 to 3 
minutes.
    Senator Stevens. I've got to keep going.
    Mr. Banks?
    Mr. Banks. I think that this bill, and the discussion we're 
having about the porting process are helpful for the FCC, for 
NANC, for the industry to renew their focus on this issue, and 
to work together in NANC in the Ordering and Billing Forum to 
improve the processes.
    Senator Stevens. Mr. Clark, the FCC has had it before the 
Commission for 3 years, as I understand it, and has not acted. 
Do you think we have to have this bill?
    Mr. Clark. Mr. Vice Chairman, I think in our opinion it 
would be necessary, to the extent necessary to get the FCC to 
act, well, they've got the authority they need. Does this 
hearing and the bill, perhaps, speed up a process that, 
perhaps, has been too slow at the FCC? I think we would agree 
with that.
    Senator Stevens. What do you think, Mr. Guttman-McCabe?
    Mr. Guttman-McCabe. Senator, I would say, I hope that this 
legislation is not necessary. The Commission has before it a 
recent filing by Sprint and T-Mobile of December of 2006, and 
we hope that they will act quickly on that. We are concerned by 
some of the suggestions by Mr. Banks and others that this is 
properly housed in the NANC or in the ATIS Ordering and Billing 
Forum, because it's been there since 2004, and that's 3 years. 
So, hopefully it's not necessary.
    Senator Stevens. OK, last question for this time--the 
current legislation doesn't cover Internet voice services in 
the port area. Do you think we need this bill so it will be 
covered?
    Any of you?
    Mr. Schremp. I believe there's value in clarifying that 
VoIP providers are, in fact, mandated to support number 
portability, as we put in some of our filings with the FCC. 
Vonage ports have taken as long as 3 weeks in many cases, and 
it has been a fairly common experience.
    Senator Stevens. Mr. Chairman, I'm sorry to take so long, 
I'll yield the floor. But, I do think there must be cost 
differences in the way this is done, and I think we should have 
from you all, what are the differences, and what are the--how 
do they vary in terms of wireless-to-wireless, wireless-to-
wireline, and wireline-to-wireless, in terms of the cost 
differences. Could you give us that information?
    Thank you very much, Mr. Chairman.
    The Chairman. I thank you, your questions were very 
important, so you could have continued if you wanted it.
    Senator Klobuchar?

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you, Mr. Chairman.
    Thank you to our witnesses. I was listening to this 
remembering back to when I worked in this area as a private 
lawyer representing MCI and other companies back in the 
nineties, and this was right when the Telecom Act passed, and I 
remembered we had hearings about area codes, and very heated 
discussions about whether people would remember new area codes 
and that they wanted to have the same one as their neighbors, 
and I remember the discussion would always say, ``But in the 
future, we're going to have number portability, and it won't 
matter.'' And, so here we are.
    And I do believe that for consumers to fully benefit from 
the competitive promises of the 1996 Telecom Act, we need to 
ensure that the telecom industry is operating under an 
efficient and fair number portability system. After all, the 
promise of that landmark legislation can only be realized if 
consumers are able to take advantage of the competitive options 
that are available to them.
    So, I just had a few questions along those lines to follow 
up on some of the questions that Senator Stevens was asking. 
And I guess the first question is for you, Mr. Banks, is you 
talked about--and there was a line of questioning about how, 
that you've received very few consumer complaints, I think in 
your prepared testimony you said 9 porting complaints out of 
approximately 900,000. Yet, I think that where we were going 
here, was that for some of the companies, it's much more 
difficult to do that. And, could you talk about where the 
complaints are, and where the problems are, and is it solely 
based on the size of the company?
    Mr. Banks. So, I think that there's no simple answer to 
your question, in that there is a lot of performance data 
that's submitted to state commissions from the larger companies 
that look at, sort of, various aspects of ordering and porting. 
So there are monthly reports to state commissions for the 
larger carriers.
    The smaller carriers--from the data we have gotten, which 
is, certainly doesn't cover all of them--shows that, for the 
most part they work their processes correctly, and get very few 
complaints.
    So, I think there are some ships passing in the night about 
exactly how many complaints are there, and how many intervals 
are missed, and who's doing it.
    Senator Klobuchar. Mr. Clark, do you have anything along 
this line that you'd like to add? Just as we've discussed, 
there's such a difference between the portability between 
wireless-to-wireless, and wireline-to-wireless.
    Mr. Clark. Sure, and Senator, let me say, it's an honor to 
testify before you. My old legislative district in Fargo 
bordered the Red River, so we in eastern North Dakota sort of 
adopted most of northwest Minnesota as honorary North Dakotans.
    Senator Klobuchar. And we, too.
    [Laughter.]
    Mr. Clark. Let me say that, I think that your state 
commissions would have better information, as Mr. Banks 
suggested, for those larger carriers. And a good part of the 
reason is because the 271 process, most States, as part of that 
approval process, tracked the manner in which new customers, or 
ports are taken. Things like that. So, I think you, probably 
are able to get pretty good information on most of the former 
Bell companies.
    It would be more difficult for everyone but the RBOCs, 
because I don't know that that information would be as readily 
available. I know in talking with the smaller carriers in our 
State, they had a great deal of concern about implementing 
local number portability, because of the cost-benefit that 
they, perhaps, saw. And most of them have indicated that they 
have yet to process any local number portability cases, 
although they indicate they have the capability to do so.
    Senator Klobuchar. How does the demand differ from, though, 
rural areas to metropolitan areas across the country for the 
intermodal number porting?
    Mr. Clark. Senator, I think the answer is probably that 
you're going to see most of it in the urban areas, and the 
reason is because as you get into more rural areas--although 
it's not universally true--certainly wireless coverage tends to 
be a little bit more spotty. So that, the reason----
    Senator Klobuchar. I guess I just noticed that on my trip 
home.
    [Laughter.]
    Mr. Clark. So, folks in rural areas oftentimes, the 
rationale behind getting a wireless phone is often for the 
mobility aspect, being able to have some safety on the highways 
when they travel long distances, things like that, whereas 
actually cutting the cord may not be as realistic an option for 
them, because, perhaps, their in-home wireless penetration 
isn't as good as you might have in more urban areas. I think 
that's probably a lot of what's driving the reason that the 
impetus for wireline-to-wireless ports seems to be in the more 
urban areas, where there just is much heavier wireless 
coverage. And they tend to be covered by the RBOCs.
    Senator Klobuchar. Mr. Schremp, I know your company has 
business in Minnesota, and employees in Minnesota, and I just 
wondered from your perspective, how long do you believe that 
potential customers have to wait for your service, before 
they're transferred?
    Mr. Schremp. Our average order to install interval is in 
the range of 10 to 12 days for a ported number, which is 
significantly longer than our install interval for other types 
of services. And one of the things that becomes particularly 
challenging for us is that--as you probably see in advertising 
and so forth across the cable industry--you know, the real push 
is around the ``bundle'' of services. So, video programming, 
high-speed Internet access, and telephone.
    And, there are certainly many scenarios where, because of 
delays in the porting process, we're forced to go out, and the 
consumer is forced to endure, two separate installations; go 
out and install video service and high-speed Internet service, 
and then wait for number porting to occur to come back and 
install the telephone service. So, it creates, sort of, an 
additional layer of complexity for us, above and beyond other 
issues that may occur, solely within the phone product.
    Senator Klobuchar. And how about the number of people that 
cancel their service, because it just takes too long to 
transfer? And, do you have Minnesota-specific numbers on that?
    Mr. Schremp. I don't have Minnesota-specific numbers, I 
could certainly obtain them for you and share them.
    The real challenge that we have, is when an order is 
rejected by what we call, the donor telco, the portee, I guess 
is the way to look at it--and that rejection rate is about 15 
percent, so 150 to 300 per day. The challenge in almost every 
case, once an order is rejected, is that our original install 
date that we've negotiated with the customer, and arranged with 
the customer, is no longer valid. So, we have to get back in 
touch with that customer--they may or may not have to re-plan 
their schedule, and so forth.
    And so, the cancellation rate is particularly high within 
those 15 percent that have an order rejected in the initial go-
round. And, it becomes a snowball effect of negotiating a new 
installation date, and communicating with the customer.
    Senator Klobuchar. OK. Thank you very much.
    The Chairman. I thank you very much.
    All of you have mentioned NANC, the North American 
Numbering Council. It was set up to advise the FCC on matters 
that we are now discussing. I gather that NANC has not been 
submitting any important recommendations on matters that we're 
discussing now.
    Mr. Banks, you suggested another group, made up of 
consumers and wireless and wireline people. Are you suggesting 
we wipe out NANC?
    Mr. Banks. No, I'm certainly not. I think NANC has been a 
leader in this area, and in particular, they formulated a 
working group, a subcommittee composed of consumer 
representatives, and carriers, to work on intermodal porting. 
And they submitted a pretty detailed report to the FCC in 2004, 
and since then a sub-group at NANC has continued to work on 
solving piece-parts of the intermodal porting problems, and to 
make those better.
    So, a big chunk of their work and report was done in 2004, 
and they've continued working on this problem since then.
    The Chairman. Are you suggesting that legislation is not 
necessary because NANC is operating?
    Mr. Banks. No. I think that this bill, and discussion--as I 
said before--are very good to motivate people to look more at 
this issue, and to go back to the FCC and NANC, and work more 
on it.
    The Chairman. I was interested in your responses to Senator 
Stevens' questions. I was impressed by The Wall Street Journal 
article on the recent mad rush to push this iPhone, Apple 
iPhone, and then the problem that followed that. Is there any 
way we can resolve that? This congestion problem?
    Mr. Banks. Well, I think the fact that whatever--500,000 of 
them were sold over the course of a weekend is probably 
difficult for any industry to deal with. It seemed to me the 
problems were relatively small, and I think it's very difficult 
to know. I mean, I would assume that a great majority of the 
issues are on wireless-to-wireless porting, because wireline-
to-wireless porting is about 3 percent of total ports. So, I'm 
sure there are some issues with wireline-to-wireless, but I'm 
sure there were many issues with wireless-to-wireless ports as 
well.
    The Chairman. I would like to ask the panel, do you believe 
that this Committee should proceed in acting upon this bill? 
I'll ask each one of you. Do you think we should continue? Or 
just stop it at this point? Mr. Schremp?
    Mr. Schremp. I think the Committee should continue on two 
bases. One is relative to your earlier point about NANC. You 
know, from our perspective, in the wireline-to-wireline world, 
there are no market forces that are going to drive efficiency. 
It's a documented fact that the incumbent providers are losing 
6 to 7 percent market share every year. And other alternatives, 
both wireless and competitive wireline included, are picking up 
that market share.
    So, regardless of cost allocations and those sorts of 
things, the incumbent telcos are in a net-loss position for 
wireline services, period. And, whether it's through FCC 
action, or through this Committee, we believe that the market 
forces, again, are not sufficient, and that further action is 
required. Again, either through FCC action or through this 
Committee, and legislation associated.
    The Chairman. Mr. Banks?
    Mr. Banks. Well, I think again, the Committee's interest in 
this issue, and the discussion we're having here, can only help 
the entire industry sit down and work through these issues. But 
they are very complicated, and some of them are very costly.
    The Chairman. Mr. Clark?
    Mr. Clark. Mr. Chairman, I'm always bound by Association 
policy and resolution that's been adopted, and I have to say 
that we haven't taken a specific position on this piece of 
legislation.
    However, from my own perspective, I think at the very 
minimum it makes sense to keep the legislation alive, to keep 
the pressure up. We believe that the FCC can address this, has 
the authority to address it, but to the extent that it 
continues to not be acted upon, we believe that hearings such 
as this, and potential legislation are worthwhile.
    The Chairman. Mr. Guttman-McCabe?
    Mr. Guttman-McCabe. Mr. Chairman, I would agree, I think, 
with my colleagues on the panel that, at the least, it makes 
sense for the Committee to continue to watch over what is 
happening at the Commission. We are concerned by the concept of 
leaving this with the NANC or the ATIS Forum, because those are 
consensus-driven bodies, and at least half of the membership of 
those consensus-driven bodies don't have the incentive to reach 
consensus. So, there is an active proceeding at the Commission, 
it's alive, it's recent, and hopefully the Commission will act 
appropriately and timely on that. If not, then I think it, you 
know, it makes sense to revisit the fact, or the need for 
legislation. But, in the interim, watching over the process, 
and making sure that something happens, makes complete sense.
    The Chairman. Thank you very much.
    Senator Stevens?
    Senator Stevens. Was there an increase in hoarding, after 
the FCC acted?
    Mr. Guttman-McCabe. In its original?
    Senator Stevens. Yes.
    Mr. Guttman-McCabe. Yes, absolutely. And, initially, in the 
wireless-to-wireless space, Mr. Vice Chairman, there was a 
large number of ports, that I think has toned down a little 
bit, but it's been relatively consistent in the wireless-to-
wireless space. The wireline-to-wireless space we're seeing, as 
Mr. Schremp had said, we're seeing a quarter-to-quarter drop in 
the number of people who have LEC lines, and in turn, a 
significant percentage of those are people who are trying, when 
they cut the cord, to bring their numbers with them, so----
    Senator Stevens. To the whole panel--what's the single-
greatest cost involved in porting? I assume it differs from 
smaller to medium to larger-sized telephone companies, but 
what's the greatest cost involved in this? Is it manual? Does 
it involve sending a guy out in a truck? What is the cost here, 
in terms of that shifting? Basic costs.
    Mr. Clark. Mr. Chairman, I personally haven't been through 
one of the LNP cost-benefit cases in my own State of North 
Dakota--a number of state commissions have, and I think that we 
could probably provide you with some of that information in a 
follow up response form.
    I think what you'll probably find is it, it really depends 
on the size of the company, and when you talk about smaller 
LECs, they just simply don't--at least up to this point--get a 
lot of porting requests, and so the per-port cost would be 
quite high.
    Senator Stevens. Let me be the, just the devil's advocate 
here. Could I just decide I want to keep my wireline, and I 
want to add wireless to it? Can I have two providers on the 
same number?
    Mr. Guttman-McCabe. I don't think that technology exists 
right now, Mr. Vice Chairman. I think that----
    Senator Stevens. So, if I have an IP phone, by definition--
have to leave the wireline if I want to use it?
    Mr. Guttman-McCabe. I think that is the case, with the 
technology today.
    Senator Stevens. Is it coming? Why shouldn't I be able to 
say, by just a little switch on my phone at home, that's wired, 
I'm going off on the wireless now, I want to use this as I ride 
my motorcycle.
    Mr. Clark. Chairman Stevens, I believe that, that 
technology isn't far from what is soon going to be rolled out 
by T-Mobile, a lot of folks have keyed in on that where, the 
technology, when you're out on your motorcycle rides over the 
wireless network, traditional cellular network, when you get 
near your home, it actually hits a WiFi spot, and at the point 
that it picks up that WiFi signal, the call goes over a 
traditional, sort of, broadband-type network. And the device 
itself, recognizes when it's close to one of those spots, where 
it can hit the broadband network, versus----
    Senator Stevens. I hope someone does--I prefer using my 
speakerphone at home, I can work, and turn it on. I can't do 
that with the iPhone, but I can't have it when I'm out, away 
from the house. It does seem to me that some of this problem 
could go away if we just say, look, you can use another 
mechanism if you want to, you don't have to switch services in 
order to do it.
    Senator Thune?
    Pardon me, Mr. Chairman, your----
    The Chairman. Senator Thune?

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman, and I appreciate 
you holding the hearing. I think that it's pretty clear that 
giving customers the ability to keep their telephone numbers as 
they change service providers is one of the smarter things that 
the Congress has done in recent years, in terms of 
telecommunications policy, and I would argue that it's been--by 
and large--a success. The barriers to changing voice service 
providers have dropped significantly with the advent of number 
portability, and that means more competition. So, I think we 
can expect that voice service providers won't simply rely on 
their customer's desire to keep their phone number as a reason 
to keep their service with their current provider.
    I do have a couple of questions, with regard to making that 
process work more smoothly, and regarding any additional action 
that ought to be taken, either by Congress or the FCC. And the 
first has to do with whether or not the witnesses believe that 
the FCC currently has the authority to act on this issue.
    Mr. Clark. Yes.
    Mr. Guttman-McCabe. Yes.
    Senator Thune. Everybody is in agreement on that point?
    Then, can you tell us why Congress ought to be intervening, 
and is there anything that the legislation that's before us 
does that the FCC couldn't do on their own?
    Mr. Clark. I think the rationale for Congress intervening 
would be is, if the sense of Congress is that it just simply is 
taking too long at the FCC to act on some of the petitions, and 
concerns, and questions that have been raised about the length 
of time, and the differential, really, between wireline-to-
wireline porting, and wireline-to-wireless porting, Senator.
    Senator Thune. Anybody else care to comment on that?
    Mr. Guttman-McCabe. I think I would agree with that 
statement, that if Congress can provide a measure of oversight 
over the Commission process, and if it, if it extends too long, 
or an outcome comes out that doesn't make sense, then 
Congressional action likely would make sense in that case. But, 
the most recent filing by Sprint and T-Mobile was in December, 
and that docket has been fully submitted, and hopefully we'll 
have a decision from the Commission in the short-term on that.
    Mr. Schremp. And from Charter's perspective, we've 
overcome, you know, a whole host of hurdles to become 
successful in the facilities-based wireline market, you know, 
including certainly inter-connection agreements, inter-
connection rights, you know, economic issues about making 
facilities-based competition work.
    But, given that three-quarters of our customers port their 
numbers when they come to us, we have--on a daily basis--what 
we view as, you know, a barrier to competition. Certainly for 
those cases where, you know, where we've got folks that aren't 
abiding by the current 4-day rule. So, any mechanism to enforce 
that current 4-day rule is something that enables us to 
continue to be successful, and to drive additional investment 
in launching new markets.
    Senator Thune. Are we seeing any differences in number 
portability between large and small voice service providers?
    Mr. Banks. Yes, I mean, from the USTelecom perspective, the 
difference we see is that smaller carriers tend to be more 
manual in how they deal with these requests, larger carriers 
tend to have more complex operating systems that can automate 
some of the process. But there's very clearly a difference 
between how smaller carriers can afford to approach this 
problem, how larger carriers can.
    Senator Thune. And, do you think we need different 
deadlines for portability, for, based on the size of the 
carrier?
    Mr. Clark. Senator Thune, one of the things that I would 
just comment on, is probably one of the state commissions that 
has a very well-developed record on this particular topic is 
your home state of South Dakota. I'm very familiar with a 
number of the folks down there, and they had very extensive 
hearings on the cost to implement local number portability, 
specifically for those carriers defined under the Act as rural.
    Senator Thune. Anybody else care to comment if we ought to 
have some distinction between--?
    Mr. Guttman-McCabe. Sure, I think, I think if a distinction 
comes out of the process, and it's sort of a fully vetted 
process at the Commission, and it makes sense, that's one 
thing. Our concern is that the process has completely stalled 
in front of the NANC and the ATIS Ordering and Billing Forum, 
and it's been in this same state since 2004. And, as I said 
earlier, those are both consensus-driven bodies, and when a 
significant portion of the membership of those bodies has no 
incentive to reach a consensus, it makes logical sense that the 
process is going to stall.
    What we've done as T-Mobile and Sprint, and then as an 
industry association is put a recommendation on the table, 
saying that this can be done with four fields, and can be done 
quickly, and we have to believe that if a carrier only has to 
monitor less fields, in some areas, it has to cost less. It 
just seems, seems just eminently logical. And, our ports are 
working--a larger number of ports, quicker time, less fields, 
with less failures. And I think that's kind of like a grand 
slam in the sense that, if all four of those things are true, 
we see a need to sort of export that into the wireline-to-
wireless port space. And, hopefully, that's where the 
Commission comes out, is reducing the amount of time, and 
reducing the amount of fields that are needed to be filled in 
before a port becomes successful.
    Senator Thune. Mr. Chairman, thank you and thank our panel 
for your testimony, and your answering questions. Thanks.
    The Chairman. Thank you very much.
    Based upon your testimony, and your suggestions, and I'll 
have to confirm with the Vice Chairman, I wish to announce that 
this bill will be subject to an Executive Session, or mark-up, 
a week from today. So, may I suggest that, if you have any 
recommendations as to amendments, additions, or what have you, 
will you please advise us as soon as you can?
    With that, the hearing is adjourned.
    [Whereupon, at 11:10 a.m., the hearing was adjourned.]

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
